App. No. _______
In The

Supreme Court of the United States
RENEE BAKER, WARDEN, et al.,
Petitioners,
v.
JEFF N. ROSE,
Respondent.
APPLICATION FOR AN EXTENSION OF TIME WITHIN
WHICH TO FILE A PETITION FOR A WRIT OF
CERTIORARI TO THE UNITED STATES COURT OF
APPEAL FOR THE NINTH CIRCUIT
TO THE HONORABLE ELENA KEGAN, ASSOCIATE JUSTICE OF THE SUPREME
COURT OF THE UNITED STATES AND CIRCUIT JUSTICE FOR THE NINTH
CIRCUIT:
Pursuant to this Court’s Rule 13.5, the Warden Renee Baker
respectfully requests a 30-day extension of time, to and including
Wednesday, March 25, 2020, within which to file a petition for a writ of
certiorari to the United States Court of Appeals for the Ninth Circuit.
The Ninth Circuit issued an order denying rehearing November
26, 2019. Unless extended, the time within which to file a petition for a
-1-

writ of certiorari will expire on February 24, 2020. This application has
been filed 10 days before this date. The jurisdiction of this Court is
invoked under 28 U.S.C. § 1254(1).

A copy of the Ninth Circuit’s

memorandum is attached as Exhibit A. A copy of the Ninth Circuit’s
order denying rehearing is attached as Exhibit B.
1.

This

case

raises

important

constitutional

questions

concerning federalism and application of the Antiterrorism and
Effective Death Penalty Act of 1996 (hereinafter AEDPA) to a claim
that application of state evidentiary law barring the use of collateral
evidence for impeachment purposes violated a defendant’s right to due
process. In particular, the Ninth Circuit reversed a decision from the
United States District Court for the District of Nevada denying habeas
relief, concluding that the exclusion of evidence of prior allegations of
abuse violated Rose’s right to present a defense.
The State originally charged Jeff N. Rose (hereinafter Rose) with
various counts of sexual assault on a minor and lewdness with a minor
involving four different girls—A.C., C.C., D.A., and Z.V. The case went

-2-

to trial and the jury acquitted Rose of all the accounts with respect to
D.A. and Z.V., and the jury hung, resulting in a mistrial, with respect to
all the charges involving A.C. and C.C.
The retrial was assigned to a new judge. Prior to trial, the State
moved to exclude evidence of the acquittals involving D.A. and Z.V. The
trial court indicated that it was going to preclude the parties from
presenting any evidence of allegations of abuse beyond the allegations
made by A.C. and C.C. because, although marginally relevant, the court
determined the danger of unfair prejudice, confusion of the issues, or
misleading the jury substantially outweighed the probative value of the
evidence.
Rose filed a memorandum explaining to the trial court that its
ruling impaired his ability to present his anticipated defense, including
attempting to establish bias of A.C. and C.C. by showing that the girls
were mad at Rose because he was acquitted of numerous charges in the
first trial. Additionally, Rose sought clarification of the ruling at trial to
determine: (1) whether he was precluded from mentioning the D.A. and

-3-

her accusation of abuse, and (2) whether he could use testimony from
three other girls—C.R., K.T., and R.S.—to impeach A.C. with respect to
a statement she made about seeing Rose abuse those three girls.
However, the trial court maintained its ruling and excluded any
evidence of allegations that Rose abused any girls other than A.C. and
C.C.
The jury ultimately acquitted Rose on all the counts related to
A.C. However, the Jury convicted Rose on all of the counts involving
C.C.
Rose appealed.

The Nevada Supreme Court affirmed the trial

court’s evidentiary ruling. While the Nevada Supreme Court recognized
the relevance of the evidence, it determined that the trial court did not
abuse its discretion in excluding the evidence under Nev. Rev. Stat.
40.035 because of the danger of misleading or confusing the jury.
The United State District Court for the District of Nevada denied
relief and declined to grant a certificate of appealability on Rose’s
challenge to the exclusion of evidence, while granting a certificate of

-4-

appealability on another issue. However, the Ninth Circuit expanded
the certificate of appealability and reversed the district court’s denial of
Rose’s claim that the trial court’s evidentiary ruling violated principles
of due process by depriving Rose of his ability to present a complete
defense.
2.

This case merits this Court’s review for numerous reasons.

Most significantly, while the Ninth Circuit’s decision never even
mentions the highly deferential standard of review under AEDPA, it
proceeds to grant relief on the basis that the trial court could have
issued a “narrower ruling.”

In reaching this conclusion, the Ninth

Circuit’s decision conflicts with this Court’s decision in Nevada v.
Jackson, 569 U.S. 505 (2013), and that the decision to reverse the
district court’s denial of habeas relief, which sounds in ordinary error
correction, fails to accord the deference that this Court has repeatedly
acknowledged is required when reviewing state court judgments under
AEDPA.

-5-

3.

The State of Nevada’s Solicitor General, and a Senior

Deputy Attorney General from the Post-Conviction Division of the
Nevada Attorney General’s Office are preparing the Petition for Writ of
Certiorari in this case. Both attorneys have been extremely busy since
the Ninth Circuit issued its decision denying rehearing in this case.
In addition to the ordinary press of business that comes with
serving as Solicitor General, the Solicitor General has been consumed
with the ongoing litigation involving the Equal Rights Amendment in
Virginia v. Ferriero, No. 1:20-cv-00242 (D.D.C.).

Additionally, the

Solicitor General argued before the Ninth Circuit in Shannon v. Decker,
No. 18-16697 (9th Cir.), on February 6, 2020. The Solicitor General is
currently preparing for argument before the Nevada Supreme Court
involving an important question of Nevada Water Law certified to the
Nevada Supreme Court by the Ninth Circuit in Mineral County v. Lyon
County, No. 75917 (Nev.), which the Nevada Supreme Court set for
argument on March 3, 2020 by order dated February 5, 2020.

-6-

Additionally, the Senior Deputy that will be assisting in drafting
the petition has recently been involved in drafting and/or filing
responses to several state and federal habeas petitions, including
Anderson v. Neven, No. 18-16502 (9th Cir.); Schnueringer v. Russell, No.
3:19-cv-00353-MMD-WGC (D. Nev.); Jefferson v. Russell, No. 3:19-cv00331-LRH-WGC (D. Nev.); Guitron v. Baker, No. 3:18-cv-00235-MMDCLB (D. Nev.); and Leonard v. Gittere, No. 2:99-cv-00360-MMD-DJA
(D. Nev.). In addition, he was recently assigned to serve as counsel of
record in an evidentiary hearing in McClain v. LeGrand, No. 3:14-cv00269-MMD-CLB (D. Nev.), and he has been diligently working on
preparation for the hearing, including retaining an expert and
coordinating an evaluation of the petitioner with the correctional
facility and the petitioner’s attorneys.
In light of the foregoing, Petitioner is seeking a 30-day extension.
The Ninth Circuit granted Respondents’ request for stay of the mandate
pending resolution of the petition.
///

-7-

Accordingly, Petitioners respectfully request the entry of an order
extending their time to file a petition for writ of certiorari by 30 days,
up to and including Wednesday, March 25, 2020.
Respectfully submitted,
AARON D. FORD
Attorney General
/s/ Heidi Parry Stern
HEIDI PARRY STERN
Solicitor General
Counsel of Record
Office of the Nevada Attorney General
555 E. Washington Ave.
Suite 3900
Las Vegas, Nevada 89101
Telephone: (702) 486-3420
HStern@ag.nv.gov
February 14, 2020

-8-

CERTIFICATE OF SERVICE
I, Heidi Parry Stern, a member of the Supreme Court Bar, hereby
certify that a copy of the attached Application for an Extension of Time
within which to File a Petition for a Writ of Certiorari was served by
first class mail on counsel identified below, pursuant to Rule 29.5 of the
Rules of this Court. All parties required to be served have been served.
Amelia Bizzaro
Assistant Federal Defender
Federal Public Defender’s Office
411 E. Bonneville Ave., Suite 250
Las Vegas, NV 89101
Counsel for Respondent
/s/ Heidi Parry Stern
HEIDI PARRY STERN

-9-

EXHIBIT A

EXHIBIT A

NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS

FILED
SEP 24 2019
MOLLY C. DWYER, CLERK

FOR THE NINTH CIRCUIT
JEFF N. ROSE,

No.
Petitioner-Appellant,

U.S. COURT OF APPEALS

17-15009

D.C. No.
3:13-cv-00267-MMD-WGC

v.
RENEE BAKER, Warden; ATTORNEY
GENERAL FOR THE STATE OF
NEVADA,

MEMORANDUM*

Respondents-Appellees.
Appeal from the United States District Court
for the District of Nevada
Miranda M. Du, District Judge, Presiding
Argued April 9, 2018
Submitted September 24, 2019
San Francisco, California
Before: WARDLAW and CLIFTON, Circuit Judges, and KATZMANN,** Judge.
Jeff Rose appeals the district court’s denial of his 28 U.S.C. § 2254 habeas
corpus petition. We have jurisdiction under 28 U.S.C. §§ 1291, 2253 and review

*

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The Honorable Gary S. Katzmann, Judge for the United States Court
of International Trade, sitting by designation.

the district court’s denial of Rose’s petition de novo. Lambert v. Blodgett, 393
F.3d 943, 964 (9th Cir. 2004). We affirm in part and reverse in part.
1. Rose claims that the Nevada Supreme Court’s holding, without reasoning,
that the admission of polygrapher Gordon Moore’s testimony about Rose’s false
admissions during his polygraph exam and a selective transcript of the exam did
not violate his due process right to a fair trial was contrary to or an unreasonable
application of clearly established Supreme Court law. 28 U.S.C. § 2254(d)(1).
Although the district court denied this claim, it certified the claim for appellate
review. We conduct an independent review of the record. See Greene v. Lambert,
288 F.3d 1081, 1088-89 (9th Cir. 2002). We affirm.
A defendant is deprived due process of law if he is denied “a fair hearing
and a reliable determination on the issue of voluntariness” of an admission.
Jackson v. Denno, 378 U.S. 368, 377 (1964).
Although Rose received such a hearing, he claimed it was “aborted” and
“neither ‘fair’ nor a ‘reliable determination.’” It is not enough, however, for Rose
to point to shortcomings in the state court procedures used to decide the issue of
voluntariness. Procunier v. Atchley, 400 U.S. 446, 451 (1971). Rose must “also
show that his version of events, if true, would require the conclusion that his
confession was involuntary.” Id. Even if the hearing were procedurally deficient
as alleged, we conclude it would not have been unreasonable for the Nevada

2

Supreme Court to have determined that Rose voluntarily made the false admissions
to Moore.
Moore read Rose his Miranda warnings, advised Rose that he was free to
leave at any time, and had Rose sign a document indicating he understood his
rights. Rose voluntarily drove himself to the building where the questioning took
place, he was not handcuffed or placed under arrest immediately before or after the
questioning, he was never physically threatened or harmed, and there is little
indication that the questioning rose to the level of improper psychological pressure.
Giving deference to the factual findings of the trial judge, who had presided over
Rose’s first trial, the Nevada Supreme Court could have reasonably concluded
Rose voluntarily made the statements to Moore.
Rose additionally claimed that even if the admissions to Moore were
voluntary, the trial court deprived him of “a meaningful opportunity to present a
complete defense” when it prohibited him from explaining that these false
admissions were made in an attempt to explain the purported results of a failed
polygraph examination. We conclude this argument has not been exhausted
because Rose failed to provide Nevada state courts with notice or a “fair
opportunity” to address this federal constitutional claim. Castillo v. McFadden,
399 F.3d 993, 998–99 (9th Cir. 2005); see also Duncan v. Henry, 513 U.S. 364,
365-66 (1995) (per curiam). We cannot grant habeas relief on an unexhausted

3

claim. 28 U.S.C. § 2254(b)(1)(A).1
2. Rose additionally argued that the Nevada Supreme Court’s decision
upholding an order by the trial court that excluded all evidence relating to other
accusers or the results of the first trial was contrary to or an unreasonable
application of federal law. The district court did not certify this claim for appeal,
but Rose presented arguments on this and other uncertified claims in his opening
brief, and we ordered the parties to brief those issues on the merits. We construe
Rose’s arguments as a motion to expand the certificate of appealability (COA). See
9th Cir. R. 22-1(e). Because Rose “has made a substantial showing of the denial of
a constitutional right,” we grant a COA as to claim one of his amended federal
habeas petition. 28 U.S.C. 2253(c)(2); see also Buck v. Davis, 137 S. Ct. 759, 773
(2017). We reverse the judgment of the district court and remand with instructions
to conditionally grant the writ of habeas corpus pending a new trial.
Just prior to trial, the court ruled that “neither the State nor the Defense is
going to be able to bring in any evidence of any prior trial, any acquittal, any other

1

Even if the argument were exhausted, it is a nonstarter because, as Rose
conceded, he “never sought to admit the purported results of the test,” even in the
alternative. Rose’s statements to Moore were admissible to show Rose’s attempts
to explain the victims’ allegations, and the admission of the statements was not
prohibited by clearly established federal law. The allegedly excluded evidence that
would have put Moore’s testimony into context, the polygraph evidence, was the
evidence that Rose himself fought to exclude.

4

victims,” even in the context of cross-examining his accusers. Rose contended this
ruling gutted his intended defense theory and violated his constitutional right to “a
meaningful opportunity to present a complete defense,” Crane v. Kentucky, 476
U.S. 683, 690 (1986) (quoting California v. Trombetta, 467 U.S. 479, 485 (1984)).
“Whether rooted directly in the Due Process Clause of the Fourteenth
Amendment, or in the Compulsory Process or Confrontation clauses of the Sixth
Amendment the Constitution guarantees criminal defendants a meaningful
opportunity to present a complete defense.” Crane, 476 U.S. at 690 (citations
omitted). An evidentiary ruling abridges this right if it is “‘arbitrary’ or
‘disproportionate to the purposes they are designed to serve[,]’ . . . [and] it has
infringed upon a weighty interest of the accused.” United States v. Scheffer, 523
US. 303, 308 (1998) (quoting Rock v. Arkansas, 483 U.S. 44, 56 (1987).
A.C.’s and C.C.’s testimonies were “central, indeed crucial, to the
prosecution’s case.” Olden v. Kentucky, 488 U.S. 227, 233 (1988) (per curiam).
A.C. testified she saw Rose molest C.C., yet she had previously stated to a
detective that Rose molested other girls, all of whom were purportedly ready to
testify otherwise. The trial court’s limitation on the scope of Rose’s crossexamination of A.C. prevented him from impeaching her on these similar
accusations. Further, because Rose could not cross-examine A.C. and C.C. about
their relationship with D.A. and other accusers or present evidence of his earlier

5

acquittals, Rose was unable to present the jury with a coherent narrative regarding
the context in which the accusations arose. Because the trial court’s ruling barred
Rose from mentioning the other accusations for which he was acquitted, it also
precluded him from introducing expert testimony that conversations between other
accusers and A.C. and C.C. contained “sufficient indicators of suggestibility or
taint which may render their statements unreliable.”
We conclude the limits the trial court placed on the scope of Rose’s crossexamination of A.C. and C.C. were disproportionate and beyond reason as “[a]
reasonable jury might have received a significantly different impression of [the
witness’s] credibility had [defense counsel] been permitted to pursue his proposed
line of cross-examination.” Id. at 232 (quoting Delaware v. Van Arsdall, 475 U.S.
673, 680 (1986)). Although there was a risk that a focus on the results and
accusations from the first trial could confuse the jury in the second trial, the trial
court could have mitigated this concern with a narrower ruling.2 The overly broad
evidentiary ruling was not harmless as demonstrated by the hung jury in the first
trial, during which the charges relating to C.C. were placed in context.

2

Nevada v. Jackson, 569 U.S. 505 (2013), on which the state relies, is
distinguishable. Unlike Rose, the defendant in Jackson was given “wide latitude to
cross-examine” his accusers. Id. at 507; see id. at 511–12 (criticizing this court for
“elid[ing] the distinction between cross-examination and extrinsic evidence”).
6

Because the limits the trial court placed on the scope of Rose’s crossexamination denied him a “meaningful opportunity to present a complete defense,”
Crane, 476 U.S. at 690, we conclude the Nevada Supreme Court’s decision
upholding it was contrary to clearly established federal law. We accordingly
reverse the district court on this issue and remand with instructions to grant the
writ pending a new trial.
3. We have carefully examined the remaining two uncertified issues and
conclude Rose has not demonstrated that “reasonable jurists would find the district
court’s assessment of the constitutional claims debatable or wrong.” Miller-El v.
Cockrell, 537 U.S. 322, 338 (2003) (quoting Slack v. McDaniel, 529 U.S. 473, 484
(2000)). We accordingly deny Rose’s request to certify his two remaining
uncertified claims.
AFFIRMED IN PART, REVERSED IN PART, AND REMANDED
with instructions to conditionally grant the writ pending a new trial.

7

EXHIBIT B

EXHIBIT B

Case: 17-15009, 11/26/2019, ID: 11512810, DktEntry: 49, Page 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
NOV 26 2019
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

JEFF N. ROSE,

No.
Petitioner-Appellant,

v.
RENEE BAKER, Warden; ATTORNEY
GENERAL FOR THE STATE OF
NEVADA,

17-15009

D.C. No.
3:13-cv-00267-MMD-WGC
District of Nevada,
Reno
ORDER

Respondents-Appellees.
Before: WARDLAW and CLIFTON, Circuit Judges, and KATZMANN,* Judge.
Judges Wardlaw, Clifton, and Katzmann vote to deny the petition for panel
rehearing. Judge Wardlaw votes to deny the petition for rehearing en banc, and
Judges Clifton and Katzmann so recommend.
The full court has been advised of the petition for rehearing en banc, and no
judge has requested a vote on whether to rehear the matter en banc. Fed. R. App.
P. 35.
The petition for panel rehearing and rehearing en banc is therefore
DENIED.

*

The Honorable Gary S. Katzmann, Judge for the United States Court
of International Trade, sitting by designation.

